                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

Case Number: A05040017                                                       11         Page 1 of 1



                   A complainant expressed concerns about the handling of certain data by NSF and
         grantees/contractors, particularly in light of budget reductions to the NSF component. The
         concerns focused on whether NSF (1) ensures that data provided to outside people or entities
         is protected adequately; and (2) will ensure that databases created under the contracts will
         end up in NSF's physical possession rather than the possession of the contractors, since those
         databases are covered by an NSF Privacy Act (PA) System.

                 Because nothing in the information provided by the complainant indicated that any
         PA interests had been compromised or that NSF had failed to retain possession of any
         databases, there was no basis to investigate anyone for a possible PA violation. With regard
         to retention of datasets created under the awards subject to the PA System, we obtained an
         inventory of the System datasets from the NSF component, which indicated that all datasets
         are either in NSF's physical possession or in use by a contractor under an on-going contract.
         We also determined that the NSF co.mponent is evaluating revision of its process to explicitly
         require coordination with contractors to transition the datasets to the possession of NSF.

                   Accordingly, this case is closed.




  ?Gdzc+ecL
NSF OIG Form 2 (11/02)
